BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief in Opposition in 19-1225, Paul Hunt v.
Board of Regents of the University of New Mexico, et
al., was sent via Next Day Service to the U.S. Supreme
Court, and 3 copies were sent via Next Day Service,
and e-mail to the following parties listed below, this
28th day of May, 2020:
William S. Consovoy
Antonin Scalia Law School
Supreme Court Clinic
Consovoy McCarthy PLLC
1600 Wilson Boulevard
Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccarthy.com
Counsel for Petitioner
Stephen S. Hamilton
Counsel of Record
Matthew A. Zidovsky
Kari E. 0 lson
MONTGOMERY & ANDREWS, P.A.
325 Paseo de Peralta
Santa Fe, NM 87501
(505) 982-3873
SHamilton@montand.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

I further certify that 1 copy of the foregoing Brief in
Opposition in 19-1225, Paul Hunt v. Board of Regents
of the University of New Mexico, et al., was sent byemail service to the following parties listed below, this
28th day of May, 2020:
Andrew Michael Grossman
Baker & Hostetler LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
(202) 861-1697
agrossman@baker law .com

Counsel for Amici Curiae First Amendment Scholars
Kimberly Stewart Hermann
Southeastern Legal Foundation
560 W. Crossville Rd.
Suite 104
Roswell, GA 3007 5-7 509
(770) 977-2131
khermann@southeasternlegal.org

Counsel for Amicus Curiae
Southeastern Legal Foundation
Michael C. Hiestand
Student Press Law Center
1608 Rhode Island Ave., NW
Suite 211
Washington, DC 20036
(360) 393-8916
mike@hiestand.org

Counsel for Amicus Curiae Student Press Law Center

Jason Brett Torchinsky
Holtzman Vogel Josefiak Torchinsky PLLC
45 North Hill Dr., Suite 100
Warrenton, VA 20186
(540) 341-8808
J torchinsky@hvjt.la w
Counsel for Amicus Curiae Speech First

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 28, 2020.

Donna J. Wol
Becker Gallagh er Leg Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

